App. 1
Addendum—Statutory Provisions
28 U.S. Code § 1605.
§ 1605. General exceptions to the jurisdictional immunity of a foreign state
...
(h) JURISDICTIONAL IMMUNITY
EXHIBITION ACTIVITIES.—
(1)

FOR

CERTAIN ART

IN GENERAL.—If—
(A) a work is imported into the United
States from any foreign state pursuant to
an agreement that provides for the temporary exhibition or display of such work
entered into between a foreign state that
is the owner or custodian of such work
and the United States or one or more cultural or educational institutions within
the United States;
(B) the President, or the President’s designee, has determined, in accordance
with subsection (a) of Public Law 89–259
(22 U.S.C. 2459(a)), that such work is of
cultural significance and the temporary
exhibition or display of such work is in
the national interest; and
(C) the notice thereof has been published in accordance with subsection (a)
of Public Law 89–259 (22 U.S.C. 2459(a)),

any activity in the United States of such foreign state, or of any carrier, that is associated
with the temporary exhibition or display of

App. 2
such work shall not be considered to be commercial activity by such foreign state for purposes of subsection (a)(3).
(2)

EXCEPTIONS.—
(A) Nazi-era claims.—Paragraph (1) shall
not apply in any case asserting jurisdiction under subsection (a)(3) in which
rights in property taken in violation of
international law are in issue within the
meaning of that subsection and—
(i) the property at issue is the work
described in paragraph (1);
(ii) the action is based upon a claim
that such work was taken in connection with the acts of a covered government during the covered period;
(iii) the court determines that the
activity associated with the exhibition or display is commercial activity,
as that term is defined in section
1603(d); and
(iv) a determination under clause
(iii) is necessary for the court to exercise jurisdiction over the foreign
state under subsection (a)(3).
(B) Other culturally significant works.—
In addition to cases exempted under subparagraph (A), paragraph (1) shall not
apply in any case asserting jurisdiction
under subsection (a)(3) in which rights

App. 3
in property taken in violation of international law are in issue within the meaning of that subsection and—
(i) the property at issue is the work
described in paragraph (1);
(ii) the action is based upon a claim
that such work was taken in connection with the acts of a foreign government as part of a systematic
campaign of coercive confiscation
or misappropriation of works from
members of a targeted and vulnerable group;
(iii)

the taking occurred after 1900;

(iv) the court determines that the
activity associated with the exhibition or display is commercial activity,
as that term is defined in section
1603(d); and
(v) a determination under clause
(iv) is necessary for the court to exercise jurisdiction over the foreign
state under subsection (a)(3).
(3) DEFINITIONS.—For purposes of this subsection—
(A) the term “work” means a work of art
or other object of cultural significance;
(B) the term
means—

“covered

government”

App. 4
(i) the Government of Germany
during the covered period;
(ii) any government in any area in
Europe that was occupied by the military forces of the Government of
Germany during the covered period;
(iii) any government in Europe that
was established with the assistance
or cooperation of the Government of
Germany during the covered period;
and
(iv) any government in Europe that
was an ally of the Government of
Germany during the covered period;
and
(C) the term “covered period” means the
period beginning on January 30, 1933,
and ending on May 8, 1945.

App. 5
HOLOCAUST VICTIMS REDRESS ACT
An Act
To provide redress for inadequate restitution of assets
seized by the United States Government during
World War II which belonged to victims of the
Holocaust, and for other purposes.
Be it enacted by the Senate and House of Representatives of the United States of America in Congress
assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the ‘‘Holocaust Victims Redress Act’’.
TITLE I—HEIRLESS ASSETS
SEC 101. FINDINGS AND PURPOSES.
...
(b) Purposes.—The purposes of this Act are as
follows:
(1) To provide a measure of justice to survivors of the Holocaust all around the world
while they are still alive.
(2) To authorize the appropriation of an
amount which is at least equal to the present
value of the difference between the amount
which was authorized to be transferred to successor organizations to compensate for assets
in the United States of heirless victims of

App. 6
the Holocaust and the amount actually paid
in 1962 to the Jewish Restitution Successor
Organization of New York for that purpose.
(3) To facilitate efforts by the United States
to seek an agreement whereby nations with
claims against gold held by the Tripartite
Commission for the Restitution of Monetary
Gold would contribute all, or a substantial
portion, of that gold to charitable organizations to assist survivors of the Holocaust.
...
TITLE II—WORKS OF ART
SEC 201. FINDINGS.
Congress finds as follows:
(1) Established pre-World War II principles
of international law, as enunciated in Articles
47 and 56 of the Regulations annexed to the
1907 Hague Convention (IV) Respecting the
Laws and Customs of War on Land, prohibited
pillage and the seizure of works of art.
(2) In the years since World War II, international sanctions against confiscation of
works of art have been amplified through
such conventions as the 1970 Convention on
the Means of Prohibiting and Preventing the
Illicit Import, Export and Transfer of Ownership of Cultural Property, which forbids
the illegal export of art work and calls for its
earliest possible restitution to its rightful
owner.

App. 7
(3) In defiance of the 1907 Hague Convention, the Nazis extorted and looted art from
individuals and institutions in countries it
occupied during World War II and used such
booty to help finance their war of aggression.
(4) The Nazis’ policy of looting art was a critical element and incentive in their campaign
of genocide against individuals of Jewish and
other religious and cultural heritage and, in
this context, the Holocaust, while standing as
a civil war against defined individuals and
civilized values, must be considered a fundamental aspect of the world war unleashed on
the continent.
(5) Hence, the same international legal principles applied among states should be applied
to art and other assets stolen from victims of
the Holocaust.
(6) In the aftermath of the war, art and other
assets were transferred from territory previously controlled by the Nazis to the Union of
Soviet Socialist Republics, much of which has
not been returned to rightful owners.
SEC 202. SENSE OF THE CONGRESS REGARDING RESTITUTION OF PRIVATE PROPERTY, SUCH AS WORKS OF ART.
It is the sense of the Congress that consistent with
the 1907 Hague Convention, all governments should
undertake good faith efforts to facilitate the return of
private and public property, such as works of art, to the

App. 8
rightful owners in cases where assets were confiscated
from the claimant during the period of Nazi rule and
there is reasonable proof that the claimant is the rightful owner.

App. 9
HOLOCAUST EXPROPRIATED ART RECOVERY
ACT OF 2016
An Act
To provide the victims of Holocaust-era persecution
and their heirs a fair opportunity to recover works
of art confiscated or misappropriated by the Nazis.
Be it enacted by the Senate and House of Representatives of the United States of America in Congress
assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the “Holocaust Expropriated Art Recovery Act of 2016”.
SEC 2. FINDINGS.
Congress finds the following:
(1) It is estimated that the Nazis confiscated
or otherwise misappropriated hundreds of
thousands of works of art and other property
throughout Europe as part of their genocidal
campaign against the Jewish people and
other persecuted groups. This has been described as the “greatest displacement of art in
human history”.
(2) Following World War II, the United
States and its allies attempted to return the
stolen artworks to their countries of origin.
Despite these efforts, many works of art were
never reunited with their owners. Some of the

App. 10
art has since been discovered in the United
States.
(3) In 1998, the United States convened a
conference with 43 other nations in Washington, DC, known as the Washington Conference, which produced Principles on NaziConfiscated Art. One of these principles is
that “steps should be taken expeditiously to
achieve a just and fair solution” to claims involving such art that has not been restituted
if the owners or their heirs can be identified.
(4) The same year, Congress enacted the
Holocaust Victims Redress Act (Public Law
105–158, 112 Stat. 15), which expressed the
sense of Congress that “all governments
should undertake good faith efforts to facilitate the return of private and public property,
such as works of art, to the rightful owners in
cases where assets were confiscated from the
claimant during the period of Nazi rule and
there is reasonable proof that the claimant is
the rightful owner.”.
(5) In 2009, the United States participated in
a Holocaust Era Assets Conference in Prague,
Czech Republic, with 45 other nations. At the
conclusion of this conference, the participating nations issued the Terezin Declaration,
which reaffirmed the 1998 Washington Conference Principles on Nazi-Confiscated Art
and urged all participants “to ensure that
their legal systems or alternative processes,
while taking into account the different legal
traditions, facilitate just and fair solutions

App. 11
with regard to Nazi-confiscated and looted
art, and to make certain that claims to recover
such art are resolved expeditiously and based
on the facts and merits of the claims and all
the relevant documents submitted by all parties.”. The Declaration also urged participants
to “consider all relevant issues when applying
various legal provisions that may impede the
restitution of art and cultural property, in
order to achieve just and fair solutions, as well
as alternative dispute resolution, where appropriate under law.”.
(6) Victims of Nazi persecution and their
heirs have taken legal action in the United
States to recover Nazi-confiscated art. These
lawsuits face significant procedural obstacles
partly due to State statutes of limitations,
which typically bar claims within some limited number of years from either the date of
the loss or the date that the claim should have
been discovered. In some cases, this means
that the claims expired before World War II
even ended. (See, e.g., Detroit Institute of
Arts v. Ullin, No. 06–10333, 2007 WL 1016996
(E.D. Mich. Mar. 31, 2007).) The unique and
horrific circumstances of World War II and
the Holocaust make statutes of limitations especially burdensome to the victims and their
heirs. Those seeking recovery of Nazi-confiscated art must painstakingly piece together
their cases from a fragmentary historical record ravaged by persecution, war, and genocide.
This costly process often cannot be done
within the time constraints imposed by existing law.

App. 12
(7) Federal legislation is needed because the
only court that has considered the question
held that the Constitution prohibits States
from making exceptions to their statutes of
limitations to accommodate claims involving
the recovery of Nazi-confiscated art. In Von
Saher v. Norton Simon Museum of Art, 592
F.3d 954 (9th Cir. 2009), the United States
Court of Appeals for the Ninth Circuit invalidated a California law that extended the
State statute of limitations for claims seeking
recovery of Holocaust-era artwork. The Court
held that the law was an unconstitutional infringement of the Federal Government’s exclusive authority over foreign affairs, which
includes the resolution of war-related disputes.
In light of this precedent, the enactment of a
Federal law is necessary to ensure that claims
to Nazi-confiscated art are adjudicated in accordance with United States policy as expressed
in the Washington Conference Principles on
Nazi-Confiscated Art, the Holocaust Victims
Redress Act, and the Terezin Declaration.
(8) While litigation may be used to resolve
claims to recover Nazi-confiscated art, it is the
sense of Congress that the private resolution
of claims by parties involved, on the merits
and through the use of alternative dispute
resolution such as mediation panels established for this purpose with the aid of experts
in provenance research and history, will yield
just and fair resolutions in a more efficient
and predictable manner.

App. 13
SEC 3. PURPOSES.
The purposes of this Act are the following:
(1) To ensure that laws governing claims to
Nazi-confiscated art and other property further United States policy as set forth in the
Washington Conference Principles on NaziConfiscated Art, the Holocaust Victims Redress Act, and the Terezin Declaration.
(2) To ensure that claims to artwork and
other property stolen or misappropriated by
the Nazis are not unfairly barred by statutes
of limitations but are resolved in a just and
fair manner.
SEC 4. DEFINITIONS.
In this Act:
(1) ACTUAL DISCOVERY.—The term “actual
discovery” means knowledge.
(2) ARTWORK OR OTHER PROPERTY.—The
term “artwork or other property” means—
(A)

pictures, paintings, and drawings;

(B)

statuary art and sculpture;

(C) engravings, prints, lithographs, and
works of graphic art;
(D) applied art and original artistic assemblages and montages;

App. 14
(E) books, archives, musical objects and
manuscripts (including musical manuscripts and sheets), and sound, photographic, and cinematographic archives
and mediums; and
(F) sacred and ceremonial objects and
Judaica.
(3) COVERED PERIOD.—The term “covered period” means the period beginning on January
1, 1933, and ending on December 31, 1945.
(4) KNOWLEDGE.—The term “knowledge” means
having actual knowledge of a fact or circumstance or sufficient information with regard to
a relevant fact or circumstance to amount to
actual knowledge thereof.
(5) NAZI PERSECUTION.—The term “Nazi persecution” means any persecution of a specific
group of individuals based on Nazi ideology
by the Government of Germany, its allies or
agents, members of the Nazi Party, or their
agents or associates, during the covered period.
SEC 5. STATUTE OF LIMITATIONS.
(a) IN GENERAL.—Notwithstanding any other
provision of Federal or State law or any defense at
law relating to the passage of time, and except as
otherwise provided in this section, a civil claim or
cause of action against a defendant to recover any
artwork or other property that was lost during the
covered period because of Nazi persecution may be
commenced not later than 6 years after the actual

App. 15
discovery by the claimant or the agent of the
claimant of—
(1) the identity and location of the artwork
or other property; and
(2) a possessory interest of the claimant in
the artwork or other property.
...
(d) Applicability. – Subsection (a) shall apply to
any civil claim or cause of action that is –
(1) pending in any court on the date of enactment of this Act, including any civil claim
or cause of action that is pending on appeal or
for which the time to file an appeal has not
expired; or
(2) filed during the period beginning on the
date of enactment of this Act and ending on
December 31, 2026.

App. 16
JUSTICE FOR UNCOMPENSATED
SURVIVORS TODAY (JUST) ACT OF 2017
An Act
To require reporting on acts of certain foreign
countries on Holocaust era assets and related issues.
Be it enacted by the Senate and House of Representatives of the United States of America in Congress
assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the ‘‘Justice for Uncompensated Survivors Today (JUST) Act of 2017’’.
SEC 2. REPORT ON HOLOCAUST ERA ASSETS
AND RELATED ISSUES.
(a)

DEFINITIONS.—In this section:
(1) Appropriate Congressional Committees.—
The term ‘‘appropriate congressional committees’’ means—
(A) the Committee on Foreign Relations
of the Senate;
(B) the Committee on Appropriations of
the Senate;
(C) the Committee on Foreign Affairs of
the House of Representatives; and
(D) the Committee on Appropriations of
the House of Representatives.

App. 17
(2) COVERED COUNTRIES.—The term ‘‘covered
countries’’ means participants in the 2009
Holocaust Era Assets Conference that are determined by the Secretary of State, or the
Secretary’s designee, in consultation with expert nongovernmental organizations, to be
countries of particular concern relative to the
issues listed in subsection (b).
(3) WRONGFULLY SEIZED OR TRANSFERRED.—
The term ‘‘wrongfully seized or transferred’’
includes confiscations, expropriations, nationalizations, forced sales or transfers, and sales
or transfers under duress during the Holocaust era or the period of Communist rule of a
covered country.
(b) REPORT.—Not later than 18 months after the
date of the enactment of this Act, the Secretary of
State shall submit a report to the appropriate congressional committees that assesses and describes
the nature and extent of national laws and enforceable policies of covered countries regarding
the identification and the return of or restitution
for wrongfully seized or transferred Holocaust era
assets consistent with, and evaluated with respect
to, the goals and objectives of the 2009 Holocaust
Era Assets Conference, including—
(1) the return to the rightful owner of any
property, including religious or communal
property, that was wrongfully seized or transferred;
(2) if return of any property described in paragraph (1) is no longer possible, the provision
of comparable substitute property or the

App. 18
payment of equitable compensation to the
rightful owner in accordance with principles
of justice and through an expeditious claimsdriven administrative process that is just,
transparent, and fair;
(3) in the case of heirless property, the provision of property or compensation to assist needy
Holocaust survivors, to support Holocaust education, and for other purposes;
(4) the extent to which such laws and policies are implemented and enforced in practice,
including through any applicable administrative or judicial processes; and
(5) to the extent practicable, the mechanism
for and an overview of progress toward the
resolution of claims for United States citizen
Holocaust survivors and United States citizen
family members of Holocaust victims.
(c) SENSE OF CONGRESS.—It is the sense of Congress that after the submission of the report described in subsection (b), the Secretary of State
should continue to report to Congress on Holocaust
era assets and related issues in a manner that is
consistent with the manner in which the Department of State reported on such matters before the
date of the enactment of the Act.

